REVIEW OF THE GSA ADVANTAGE! SYSTEM
   REPORT NUMBER A040246/F/T/V05003

          September 29, 2005
                          REVIEW OF THE GSA ADVANTAGE! SYSTEM
                             REPORT NUMBER A040246/F/T/V05003

                                              TABLE OF CONTENTS
                                                                                                                           PAGE

EXECUTIVE SUMMARY ............................................................................................i
        Purpose..................................................................................................................i

        Background ...........................................................................................................i

        Results-in-Brief .....................................................................................................i

        Recommendations .................................................................................................ii

        Management Comments........................................................................................ii

INTRODUCTION ..........................................................................................................1
        Objectives, Scope, and Methodology ...................................................................1

RESULTS OF AUDIT ...................................................................................................3
        An Effective Management Structure is Needed to Guide Advantage...................3

        Improved Process Needed for Prioritizing System Requirements........................6

        Vendor File Updates can be Delayed....................................................................6

        Investments in Virtual Stores Require Clear Understanding of Benefits .............8

        Recommendations .................................................................................................9

        Management Comments........................................................................................10

        Internal Controls ...................................................................................................10

                                                    APPENDICES

FSS RESPONSE TO DRAFT AUDIT REPORT ..........................................................A-1

REPORT DISTRIBUTION ............................................................................................B-1
                      REVIEW OF THE GSA ADVANTAGE! SYSTEM
                         REPORT NUMBER A040246/F/T/V05003

                                  EXECUTIVE SUMMARY

Purpose

The General Services Administration (GSA) Federal Supply Service (FSS) provides Federal
agencies and managers with commercial products and services by leveraging the Federal
Government’s enormous buying power and negotiating volume-purchase arrangements. GSA
Advantage!™ (Advantage) is the Internet catalog and ordering system that allows registered
Federal Government customers worldwide access to products and services from GSA, its
warehouses, and the Department of Veteran’s Affairs Schedule vendor contracts. The objective
of this review was to assess: (1) whether strategic planning and funding strategy for Advantage is
ensuring long-term success for the system; (2) if adequate controls are in place to provide
vendors and government buyers secure online capabilities; and (3) if the system is providing
adequate functional capability to keep up with changing user demands. If not, what changes are
needed to improve the system? This report addresses findings and recommendations for
improving Advantage to the Acting Commissioner of FSS.

Background

In 1995, Advantage was initially envisioned as an online ordering system for agencies to
purchase stock items from FSS warehouses, but increasing emphasis on electronic commerce,
the complexity of the acquisition environment, and customer requirements has necessitated an
increase in the scope of Advantage. To facilitate customer navigation of the Federal acquisition
process, FSS added functionality into Advantage and expanded its catalog to incorporate
Schedule services. Advantage now includes virtual stores that enable agencies to filter catalog
offerings presented to their staff that highlight special types of items, such as Blanket Purchase
Agreements and unique purchase requirements.

Results-in-Brief

Advantage is the Internet catalog and ordering system intended to provide “one-stop” shopping
for Federal government customers at best value. Advantage provides electronic acquisition
support by replacing direct contact with multiple vendors, offline use of other FSS systems, and
the need for users to maintain paper copies of GSA schedule documents and catalogs. Sales
have increased on Advantage since 1995, and many enhancements have been made to the system
to better meet customer needs. However, Advantage orders account for only about 10% of all
potential product sales. Our review identified four key areas that require management attention
to ensure the continued success of the Advantage system. First, Advantage needs an effective
management structure with the sufficient authority necessary to ensure it reaches its full sales
potential and other goals for continued success. Second, system specific performance measures
to guide the selection and prioritization of new system requirements for Advantage are needed.
Third, improvements in processes for uploading vendor product data are needed to address
concerns raised by vendors and to improve the overall efficiency of Advantage. Finally, a more



                                                i
thorough analysis of the costs and benefits for virtual stores being offered with Advantage is
needed to identify lessons learned and best practices for marketing the system. Taking specific
steps to strengthen overall managerial, operational, and technical controls for Advantage at this
critical juncture will help GSA to meet evolving customer needs and ensure the long-term
success of the system.

Recommendations

We recommend that the Acting Commissioner, Federal Supply Service, take the necessary
actions to:

   1. Establish a management structure with adequate authority and responsibility for the
      management, funding, and strategic planning of Advantage to ensure the system’s
      continued success and that all business line and support office requirements are met.

   2. Develop and implement specific performance measures for Advantage to guide the
      selection and prioritization of new system requirements.

   3. Ensure that adequate processes are in place to minimize potential delays of vendor
      product data uploads on Advantage by:
         a. Enhancing or replacing the existing vendor product data upload program with a
             more robust and user-friendly tool for vendors.
         b. Re-evaluating the current vendor file validation and update software for
             enhancement or replacement.
         c. Adjusting the maximum daily file upload capacity in order to keep pace with the
             growing number of vendors and quantity of files submitted.
         d. Improving the turnaround time for the approval of vendor files by contracting
             officers.

   4. Analyze virtual stores for Advantage to ensure that the tangible and intangible benefits of
      these investments exceed their development and maintenance cost.

Management Comments

In her September 26, 2005 response to our draft report, which is included in its entirety as
Appendix A, the Acting FSS Commissioner generally concurred with the findings and
recommendations presented in our report. Written comments provided by the Acting
Commissioner describe current and planned activities towards resolving issues raised in the
report.




                                               ii
                  REVIEW OF THE GSA ADVANTAGE! SYSTEM
                     REPORT NUMBER A040246/F/T/V05003

                                  INTRODUCTION

GSA Advantage!™ (Advantage) is the Internet catalog and ordering system accessible 24
hours a day, seven days a week, that allows over 400,000 registered Federal government
customers worldwide to access over nine million products and services from more than
14,000 General Services Administration (GSA) and the Department of Veteran’s Affairs
Schedule vendor contracts and from GSA warehouses. Advantage is a major Information
Technology investment that, as of May 2005, has achieved $1.3 billion in sales since
1995, for 2.2 million orders. Sales for FY 2005 through Advantage have grown from
$4.9 million in Fiscal Year (FY) 1996 to nearly $300 million as of August. Advantage is
the "one-stop" shopping source for Federal Government purchasing agents implemented
to provide an effective way for Government personnel to order from GSA and its
Schedule vendors electronically using their Government credit cards or Federal agency
account codes. Thus, the system enables electronic "Government to Government"
business with customers and "Government to Business" operations with contractors who
supply goods and services to the Federal government. Two new tools with Advantage
are E-Buy and E-Library. E-Buy is an online Request for Quote tool which provides
customers with the capability to issue and receive quotes for goods and services from
Schedule vendors and E-Library is the online source for information on Schedules and
established contracts. Virtual stores, offered with Advantage, provide a customized view
of the system to agencies for a tailored on-line shopping experience. Through separate
web addresses for each virtual store, agencies can post their Blanket Purchase
Agreements (BPAs) on their agency store. Advantage also provides an online purchasing
and acquisition research environment in support of the GSA strategic goals to provide
best value to the customer and operate efficiently and effectively. The system directly
supports the FSS business line of the Office of Commercial Acquisition and is managed
by multiple groups including the Systems Management Center (FXS) in the Office of
Acquisition Management and the E-Business Division (FIB) within the Office of the
Chief Information Officer.

Objectives, Scope, and Methodology

Our overall objective for this review was to assess whether: (1) FSS’ strategic planning
and funding strategy for Advantage is ensuring long-term success for the system; (2)
adequate controls are in place to provide vendors and government buyers secure online
capabilities; and if (3) the system is providing adequate functional capability to keep up
with changing user demands, and if not, what changes are needed to improve the system?

Information on Advantage was gathered through interviews with key management
officials within FSS and through analysis of goals and documentation for the system. We
met with and obtained information from the acting FSS-Chief Information Officer; the
Advantage Project Manager; the Director of the E-Business Division; the Assistant
Commissioner of the Office of Commercial Acquisition; the Information System Security



                                            1
Manager and Officer; and Directors of support organizations within the Office of
Acquisition Management. We gathered information on vendor satisfaction with a phone
survey of a sampling of 60 out of approximately 14,000 vendors, who actively sell
products on Advantage.

We analyzed the GSA Advantage Budget Year 2006 Business Case, GSA Advantage
Business Case Analysis, August 2004; FSS Information Technology Strategic Plan -
Volume 1 and 2, September 2004; GSA Federal Supply Service e-Catalog System
Requirements – v1.0, December 2004; and the GSA IT Capital Planning and Investment
Control Guide, December 2002. During the time frames of this audit, specific system
security vulnerabilities were reported through the OIG FY 04 Advantage Federal
Information Security Management Act (FISMA) reporting process. The FY 2004 Office
of Inspector General Review of GSA's Information Technology Security Program report
provided the results of our assessment of security controls for nine systems, including
Advantage, across GSA’s Services, Staff Offices, and Regions, while the FY 2004 Office
of Inspector General Information Security Review of GSA Advantage! report detailed
results for vulnerability tests for GSA Advantage. To assess security controls for
Advantage subsequent to FISMA, we examined the updated system risk assessment,
security plan, system testing and evaluation results, certification and accreditation letters,
contingency plan, and system-level plan of action and milestones.

We considered applicable Federal laws, regulations, and policies including: Office of
Management and Budget (OMB) Circular A-11, Preparation, Submission, and Execution
of the Budget, July 2004; OMB Circular A-130, Appendix III, Security of Federal
Automated Information Resources, November 2000; Capital Programming Guide,
Supplement to Part 7 of OMB Circular A-11, July 1997; the Government Accountability
Office (GAO) Report, GAO-03-328 Business Strategy Needed for GSA’s Advantage
System, February 2003; and the Software Engineering Institute Capability Maturity
ModelSM for Software, Version 1.1, February 1993. Federal Information Security
Management Act, Title III of the E-Gov Act, December 2002; the GSA Information
Technology (IT) Security Policy, CIO P 2100.1B, November 2004; OMB FY 2004
Reporting Instructions for the Federal Information Security Management Act; National
Institute of Standards and Technology (NIST) Special Publication 800-18, Guide for
Developing Security Plans for Information Technology Systems, December 1998; NIST
Special Publication 800-30, Risk Management Guide for Information Technology
Systems, October 2001; NIST Special Publication 800-34, Contingency Planning Guide
for Information Technology Systems, June 2002; NIST Special Publication 800-37,
Guide for the Security Certification and Accreditation of Federal Information Systems,
May 2004; and the GSA’s Systems Development Life Cycle (SDLC) Policy Handbook,
CIO P 2140.2, April 2004.

We performed our audit work between September 2004 and June 2005 in accordance
with generally accepted government auditing standards. Audit work was primarily
performed at FSS headquarters in Arlington, Virginia.




                                              2
                                 RESULTS OF AUDIT

GSA Advantage!™ (Advantage) is the Internet catalog and ordering system intended to
provide “one-stop” shopping for Federal government customers at best value. Advantage
provides electronic acquisition support by replacing direct contact with multiple vendors,
offline use of other FSS systems, and the need for users to maintain paper copies of GSA
schedule documents and catalogs. Although sales have increased on Advantage since
1995, and many enhancements have been made to the system to better meet customer
needs, Advantage orders account for only about 10% of all potential product sales. Our
review identified four key areas that require management attention to ensure the
continued success of the Advantage system. First, Advantage needs an effective
management structure with the sufficient authority necessary to ensure it reaches its full
sales potential and continued success. Second, system specific performance measures are
needed to guide the selection and prioritization of new system requirements for
Advantage. Third, improvements in processes for uploading vendor product data are
needed to address concerns raised by the vendors and to improve the overall efficiency of
Advantage. Finally, a more thorough analysis of the costs and benefits for virtual stores
being offered with Advantage is needed to identify lessons learned and best practices for
marketing the system. Taking specific steps to strengthen overall managerial,
operational, and technical controls for Advantage at this critical juncture will help GSA
to meet evolving customer needs and ensure the long-term success of the system.

An Effective Management Structure is Needed to Guide Advantage

While sales have increased approximately six-fold since Advantage was first
implemented, a program manager with overall management authority and responsibility
for the system is needed to ensure continued success for the system. The September 2004
FSS Information Technology Strategic Plan states that the FSS management structure has
not established a single business owner for Advantage and that it expends valuable
resources to coordinate and prioritize system functionality and changes across multiple
business owners and decision makers. We found specific shortfalls with the Advantage
management and planning process including an absence of a consolidated group or
designated individual responsible for the management, funding, and strategic planning for
the system. The management of Advantage is split between four offices and decisions
about funding and changes to Advantage are made by the FSS Management Council, a
committee comprised of the heads of ten different offices and eight regional offices. This
management structure for Advantage has not always ensured that necessary managerial,
operational, and technical controls are in place for the system. For instance, we found the
following areas where improvements are needed: (1) strategic planning for Advantage;
(2) procedures for tracking and allocating all system-related costs; and (3) sufficient
prioritization of system repairs or enhancements. Specific performance goals and
measures are also needed and should be targeted to achieve the system’s full sales
potential and other objectives.




                                            3
                           Figure 1: Advantage Management Organization Chart


                                                      Office of the
                                                    Commissioner (F)




    Office of Commercial       Office of Global      Office of the Chief     Office of Acquisition   Office of Marketing
      Acquisition (FC)          Supply (FL)       Information Officer (FI)   Management (FX)                (FM)




                                                   E-Business Division       Systems Management
                                                          (FIB)                 Division (FXS)




Depicted in Figure 1 above are the primary1 offices supported by the Advantage system
along with the other offices responsible for managing the system on a day-to-day basis.
The FSS Office of Commercial Acquisition (FC) is the business line that manages the
Federal Supply Schedules (Schedules) program that provides products and services to the
Federal Government. Advantage supports FC by providing an on-line ordering system
for the Schedules program. The Office of Global Supply is the business line that
provides in-stock products to the Federal Government. The Global Supply system can be
accessed through Advantage. The E-Business Division (FIB), within the FSS Office of
the Chief Information Officer (FI), is the organization responsible for day-to-day
operations, technical implementation of Advantage repairs and enhancements, and
maintenance of the system. The Systems Management Center (FXS), within the FSS
Office of Acquisition Management (FX), is responsible for identifying and developing
requirements for Advantage and the FSS Office of Marketing (FM) is responsible for
marketing the system. Each of these offices formulates its own budget, of which
Advantage expenses are one piece. These budgets are reviewed by the FSS Management
Council comprised of the FSS Commissioner, Assistant Commissioners, and Assistant
Regional Administrators to determine which projects are funded, including those related
to Advantage.




1
    Chart does not depict all business lines supported by Advantage.


                                                          4
This management structure and decision making approach has not consistently provided
effective management and planning for Advantage. OMB recommends an integrated
project and process development approach to manage capital assets using a program
manager chartered with the authority and accountability for the system. We observed
specific issues that have not garnered sufficient attention under the dispersed
management structure for Advantage, including a lack of: (1) a strategic plan to guide
Advantage; (2) procedures for tracking and allocating system costs; and (3) sufficient
prioritization of system repairs. In GSA’s current changing business environment a
program manager vested with the overall authority and responsibility for management,
funding, and strategic planning for the system would provide the cohesive management
structure necessary to guide Advantage to continued success.

       Advantage Strategy Not Developed. While the FSS IT Strategic Plan discusses
       enhancements to Advantage, such as E-Buy and E-Library, the system lacks a
       fully developed strategic plan to ensure that it achieves established goals and
       objectives. In August 2004 a GSA Advantage Business Case Analysis was
       completed, which provided an alternatives analysis and recommendations for the
       system that should be part of a strategic plan for Advantage. With Advantage,
       there is not a specified individual or group responsible for a fully developed
       strategic plan, including performance measures and metrics. Further, Advantage
       lacks performance measures and metrics for FY (FY) 2006 and beyond, as
       demonstrated in the FY 2006 OMB Exhibit 300 budget submission (Exhibit 300)
       for the system, to ascertain how it supports organizational strategic goals and
       plans. While there are $2-3 billion worth of products, out of approximately $16
       billion in total product sales that could be purchased through Advantage, only
       $200 million, or about 10%, is actually processed through the system. Without a
       comprehensive strategy for Advantage that contains performance measures for
       increasing sales and meeting other objectives, it is unlikely that the system will
       meet its full potential. A program manager, with the overall responsibility for
       Advantage, would work in conjunction with other business lines and support
       offices to ensure the development of a strategic plan that includes both business
       and IT strategy for the system, including measures and metrics to assess the
       progress with Advantage.

       Not All System-Related Costs Considered. Budgeted costs for Advantage are not
       completely accounted for and tracked in the system’s FY 2006 Exhibit 300 as
       required by OMB. According to FXS’ personnel, their budget is not reflected in
       the Exhibit 300 for Advantage since costs are allocated to the business lines rather
       than individual systems. FI budget personnel reported to us that the exclusion of
       the Advantage related FXS budget, approximately $5.12 million, from the
       Advantage Exhibit 300 was unintentional and stated that it should have been
       included. In this case, incomplete data for Advantage may have led to a
       misrepresentation of the system’s budget, historical, and lifecycle costs. Further,
       five-year budget projections for the system may not be fully developed. These



                                            5
       costs are omitted because a process is not yet in place to account for and track all
       costs, at the system level, associated with Advantage. With incomplete budget
       submissions for Advantage, important projects may have been put on hold due to
       insufficient funds. Establishing an Advantage program manager would better
       focus responsibility for: (1) ensuring that a process is in place to account for and
       track all costs related to the system as required; and (2) securing adequate
       resources for Advantage.

Improved Process Needed for Prioritizing System Requirements

We observed that processes by which system requirements are selected and prioritized for
Advantage are unclear, and selection and prioritization decisions do not appear to be
based on established criteria. Performance measures, identified in the BY 2006 Exhibit
300, may not be sufficient to support the measurement of requirements for system
enhancements identified in this business case. Furthermore, system specific performance
measures for FY 06 and beyond, which could provide management with information
upon which to base business decisions are not yet established. New Requirements for
Advantage are generated from information and suggestions from a variety of sources, the
majority of which comes from customers, customer-service directors, focus groups,
technical staff, and mandates from management. We observed that collecting
information on requested changes to Advantage is a manual process and a clear method
for organizing the data is not always followed, making it difficult to easily analyze and
manage the information. System officials in FXS are responsible for deciding which
suggestions become official requirements for the system. While system change requests
are used to document requirements once they have been decided, a formal method or
process is not in place for formulating and prioritizing requirements prior to that decision.
In this environment, we found instances where important system changes may not have
received adequate consideration. One problem with Advantage that has not been given
high priority is the Sched-Run batch process, where, although funds were allotted for the
redesign of Sched-Run in the BY 2005 Advantage business case, a redesign has not yet
been initiated. System specific performance measures are needed to guide the selection
and prioritization of new requirements and to ensure that needed system improvements
are implemented promptly.

Vendor File Updates can be Delayed

Results from our phone survey of 60 randomly selected vendors, out of approximately
14,000 vendors who sell products on Advantage, indicate that some vendors are
dissatisfied with instances of delayed visibility of their products on Advantage. Our
survey revealed that one of the top three reasons vendors call the Vendor Support Center
(VSC) is to report product file upload problems. In one instance, vendor product data
updates were delayed by as much as 20 days before becoming visible on Advantage. We
identified four main conditions contributing to the delayed visibility of vendor products
on Advantage: (1) deficiencies in the Schedule Input Program (SIP) used by vendors to
transfer product data to Advantage; (2) deficiencies in the batch process (Sched-Run)
used by the system to validate vendor catalog and price information submitted through


                                             6
SIP; (3) insufficient Sched-Run vendor file-load capacity; and (4) slow approval process
of vendor files by contracting officers. If vendor files are delayed or updated information
is not available on Advantage, buyers may not be presented with all possible product
choices on Advantage. Enhancements to the SIP tool and Sched-Run software, an
increase in upload capacity, and improvements to the manual contract review process
could reduce delayed uploads and improve the overall efficiency of Advantage.

       SIP. While the SIP tool has been used since 1995 by vendors to upload files into
       Advantage, this tool is not meeting their needs. According to our survey
       respondents, the number one reason out of the top three that vendors called the
       VSC was to report problems with the SIP tool. Although updates to SIP occur
       frequently, vendors told us that the tool is cumbersome and time-consuming. We
       identified several concerns related to the SIP tool: (1) the upload process from the
       time of logon to file submission is lengthy; (2) the process of uploading photos in
       SIP is not scalable; and (3) third party contract administrators who use SIP to
       upload files for various vendors cannot simultaneously upload multiple contracts,
       due to a SIP software limitation. To address problems associated with the SIP
       tool, FSS plans to develop a new tool called e-Catalog as an alternative for
       vendors to upload files. According to FI and FX personnel, eCatalog is intended
       to eventually replace the SIP tool. The e-Catalog project goal is to provide
       support to FSS by improving and streamlining the Advantage catalog submission,
       reduce the burden on vendors by providing a more flexible and intuitive process
       for the submission of electronic catalogs, and to improve the quality of product
       information submitted. A more robust and user-friendly tool is needed for
       vendors to upload their files and increased vendor involvement in the decision-
       making process for functional enhancements is necessary for continued success of
       the system.

       Sched-Run. Technical issues with the Sched-Run software, used by Advantage to
       validate vendor catalog and price information submitted through SIP, also
       contribute to potential delayed visibility of vendor files on the system. When
       executing the vendor file upload, Sched-Run deletes the existing file before
       uploading the new file. However, if there is a system problem in-between the file
       deletion and upload steps, the new file may not be uploaded in a timely manner
       and the vendors’ products are not visible on Advantage. According to FXS
       personnel, FSS has had frequent problems with Sched-Run and file deletions have
       occurred several times a year. Although Sched-Run is shown in the FSS Budget
       Year (BY) 2005 Office of Management and Budget (OMB) Exhibit 300 budget
       submission (Exhibit 300) as scheduled to be addressed in Fiscal Year (FY) 2004,
       this project was not carried out and does not appear in the FSS BY 2006 Exhibit
       300. Without timely, updated vendor product files, Advantage customers cannot
       consistently view the most recent products and prices through the system.
       Consequently, reported issues with Sched-Run should be re-evaluated to
       determine if the software should be fixed or replaced.




                                            7
       Insufficient Capacity. Advantage may not have sufficient capacity to handle the
       increasing number of vendor product files. Currently, the system has a daily load
       capacity limitation of 100,000 products per day, Monday through Thursday,
       causing a potential backlog of file uploads almost weekly. Sched-Run uploads as
       many vendor files as possible per day until it hits this limit. Once this limit is
       reached, the remaining files in the queue are held until the next day or weekend
       before being loaded to Advantage. Vendor files are loaded in the order they were
       approved by the Contracting Officer, depending on size. Approved files that may
       cause the product limit to be exceeded are held for the next business day while
       smaller files are loaded until capacity is reached. Vendor files that have more
       than 100,000 products each are automatically held until the weekend to be
       uploaded, as there is no upload limit for Friday through Sunday. Our analysis
       showed, on average, daily load capacity is reached Monday through Thursday
       every week, potentially causing weekly delayed uploads of vendor files. If
       vendor files are delayed and their products are not available on Advantage, buyers
       may not be presented with all possible product choices through the system.
       According to our survey, vendors seek improvements in the upload process that
       would decrease the time it takes for their files to be visible on Advantage.
       Improved system capacity could reduce delayed uploads of vendor files on the
       system. An examination of the Advantage system to ascertain how to adjust
       capacity to keep pace with the growing number of vendors and the quantity of
       files submitted is needed.

       Vendor File Approval Process. Contracting Officers manually approve vendor
       files before they are uploaded to Advantage, which also delays visibility of
       product information. After vendors submit their files to Advantage, the
       Contracting Officers check the vendor’s newly submitted files, residing in the
       Contracting Officers Review System, and manually compare them to a contract
       master file. Contracting Officers endeavor to review a vendor’s file within five
       days of receiving the file. However, our survey indicated that some vendors find
       this approval process too lengthy and that it may contribute to delayed visibility
       of products on Advantage for up to three weeks. Without timely, updated vendor
       product files, Advantage customers cannot consistently view the most recent
       products and prices through the system. Analyzing turnaround times for the
       approval of vendor files by Contracting Officers could identify possible
       improvements for Advantage and thus better meet vendor needs.

Investments in Virtual Stores Require Clear Understanding of Benefits

FSS provides virtual stores to allow agencies to create a customized view of Advantage
to facilitate their shopping experience. However, the virtual stores have been developed
without a clear understanding of the benefits they provide and whether expected benefits
outweigh the costs and resources required to develop and maintain the stores. Virtual
Store projects are intended to: (1) provide customized storefronts and reduced costs of
purchases through Schedules or customer Blanket Purchase Agreements; and (2) promote
centralized control over purchasing and integration with financial reconciliation. FXS



                                           8
personnel stated they are using virtual stores as a marketing device for Advantage and
that the customization of Advantage virtual stores has helped FSS gain and retain
customers, who otherwise may not have used the system to make purchases. FSS has
developed five virtual stores to date, all at no charge to the customer agencies. FX and FI
have spent more than $1.9 million on all virtual stores, however not all virtual stores are
being utilized by the customer agencies as expected. For example, according to FXS, the
Department of Defense (DOD) virtual store (VITM) has barely been used since it was
developed in November 2002 and FSS continues to expend resources to maintain and
support VITM. FSS reported that a cost-benefit analysis has not been completed for
virtual stores and that these stores provide intangible and non-monetary benefits. By
continuing to develop virtual stores, which may or may not be utilized, GSA could be
expending resources that would be better utilized on other Advantage projects. Further, a
method for tracking the impact of virtual stores on Advantage sales has not been
developed, and without clear goals and measures, FSS has not linked investments for
virtual stores to business objectives. A complete cost-benefit analysis is needed to
determine if the benefits, tangible and intangible, of virtual stores are exceeding the costs
of development and whether additional virtual stores should be pursued. This analysis
could also help FSS establish long-term goals and measures for virtual stores reflecting
lessons learned and best practices for marketing the system.

Recommendations

We recommend that the Acting Commissioner, Federal Supply Service, take the
necessary actions to:

   1. Establish a management structure with adequate authority and responsibility for
      the management, funding, and strategic planning of Advantage to ensure the
      system’s continued success and that all business line and support office
      requirements are met.

   2. Develop and implement specific performance measures for Advantage to guide
      the selection and prioritization of new system requirements.

   3. Ensure that adequate processes are in place to minimize potential delays of vendor
      product data uploads on Advantage by:
         a. Enhancing or replacing the existing vendor product data upload program
             (SIP) with a more robust and user-friendly tool for vendors.
         b. Re-evaluating the current vendor file validation and update software
             (Sched-Run) for enhancement or replacement.
         c. Adjusting the maximum daily file upload capacity in order to keep pace
             with the growing number of vendors and quantity of files submitted.
         d. Improving the turnaround time for the approval of vendor files by
             contracting officers.

   4. Analyze virtual stores for Advantage to ensure that the tangible and intangible
      benefits of these investments exceed their development and maintenance cost.



                                             9
Management Comments

In her September 26, 2005 response to our draft report, which is included in its entirety as
Appendix A, the Acting FSS Commissioner generally concurred with the findings and
recommendations presented in our report. Written comments provided by the Acting
Commissioner describe current and planned activities towards resolving issues raised in
the report.

Internal Controls

Our overall objective for this review was to assess whether: (1) FSS’ strategic planning
and funding strategy for Advantage is ensuring long-term success for the system; (2)
adequate controls are in place to provide vendors and government buyers secure online
capabilities; and if (3) the system is providing adequate functional capability to keep up
with changing user demands, and if not, what changes are needed to improve the system?
We conducted a limited review of internal controls for Advantage as outlined in GAO
standards. We focused our review on management, operational and technical controls for
Advantage, as well as vendor satisfaction with functionality of the system. The Results
of Audit and Recommendations sections of this report state in detail the need to
strengthen specific managerial and technical controls with Advantage. Our review did
not include a detailed analysis of all controls or capabilities within Advantage or contract
related issues pertaining to the system.




                                            10
REVIEW OF THE GSA ADVANTAGE! SYSTEM
   REPORT NUMBER A040246/F/T/V05003

FSS RESPONSE TO DRAFT AUDIT REPORT




                A-1
A-2
A-3
A-4
                         REVIEW OF THE GSA ADVANTAGE! SYSTEM
                            REPORT NUMBER A040246/F/T/V05003

                                         REPORT DISTRIBUTION

                                                                                                                Copies

Acting Commissioner, Federal Supply Service (F) .........................................................3

Acting Assistant Commissioner, Office of Commercial Acquisition (FC) .....................2

Office of the Chief Information Officer, Federal Supply Service (FI) ............................2

Acting Assistant Commissioner, Office of Acquisition Management (FX)....................2

Office of the Controller, Federal Supply Service (FP) ....................................................2

FSS Management Control and Audit Liaison, Program Management and
Administration Division (FPP) ........................................................................................1

Office of the Chief Information Officer (I)......................................................................2

Audit Follow-up and Evaluation Branch (BECA)...........................................................1

Assistant Inspector General for Auditing (JA and JAO) .................................................2

Deputy Assistant Inspector General for Acquisition Audits (JA-A) ...............................1

Administration and Data System Staff (JAS) ..................................................................1

Assistant Inspector General for Investigations (JI)..........................................................1




                                                           B-1
